No. 20-1574

rnn
$upreme @ourt ottbe @nfte! btuteg
IN

JOSEPH OCOL,
Petitioner,
V

CHICAGO TEACHERS UNION, ET AL.,
Respondents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE
of lawful age, upon my oath state that I did, on the 9th day of July,
202I, serve an electronic copy of the BRIEF IN OPPOSITION FOR RESPONDENTS

I, Lauren Noto,

CHICAGO TEACHERS UNION AND AMERICAN FEDERATION OF TEACHERS
in the above-entitled case to all parties required to be served, who consented to
electronic service only:

Frank Henry Bieszczat

Jonathan F. Mitchell
(Counsel of Record)

Mitchell Law PLLC
111 Congress Ave.

Suite 400
Austin, TX 78701
512.686.3940
j onathan@mitchell. law

I certifu under penalty

(Counsel of Record)
Office of the Illinois Attorney General
100 West Randolph Street, 12th Floor
Chicago, IL 60601
3L2.8r4.2234
fr ank. b ie s zcz at@illinois . gov

of perjury that the foregoing is true and correct

Noto
Executed on the 9th day of July, 202I

